                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General


                                    Audit of Department of State Oversight
                                     and Reporting of U.S. Government
                                      Contributions to the Global Fund

                                          Report Number AUD-CG-13-05, October 2012




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                                           United States Department of State
                                                           and the Broadcasting Board of Governo rs

                                                           Office of Inspector General




                                           PREFACE



     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.


     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.


     The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.


     1 express my appreciation to all of those who contributed to the preparation of this report.




                                             Harold W. Geisel
                                             Deputy Inspector General
                              UNCLASSIFIED




Acronyms
Global Fund   Global Fund to Fight AIDS, Tuberculosis, and Malaria
OIG           Office of Inspector General
PEPFAR        U.S. President’s Emergency Plan for AIDS Relief
S/GAC         Office of the U.S. Global AIDS Coordinator
USAID         U.S. Agency for International Development
U.S.C.        United States Code




                              UNCLASSIFIED
                                                            UNCLASSIFIED


                                                         Table of Contents
Section                                                                                                                                      Page

Executive Summary .........................................................................................................................1

Background ......................................................................................................................................2

Objective ..........................................................................................................................................2

Audit Results....................................................................................................................................3

           Finding A. Timeliness of Reporting Needs Improvement .................................................3
           Finding B. Withholding Requirements Were Met ..............................................................6

Appendices
      A. Scope and Methodology...............................................................................................10
      B. Reporting Requirements for FYs 2009–2011 ..............................................................12
      C. Withholding Requirements for FYs 2009–2011 ..........................................................13
      D. Office of the U.S. Global AIDS Coordinator Response ..............................................14

Major Contributors to This Report ................................................................................................16




                                                            UNCLASSIFIED
                                                 UNCLASSIFIED


                                             Executive Summary
        The Global Fund to Fight AIDS, Tuberculosis, and Malaria (Global Fund) is one of the
world’s largest donors supporting AIDS, tuberculosis, and malaria programs in developing
countries. The Global Fund disburses resources from governments as well as private donors, and
it works in close collaboration with other bilateral and multilateral organizations to prevent and
treat the three diseases. The U.S. Government’s contribution to the Global Fund represents the
multilateral portion of the U.S. President’s Emergency Plan for AIDS Relief (PEPFAR). Since
2009, U.S. Government contributions to the Global Fund have averaged approximately $1 billion
per year. These contributions are subject to a number of withholding and reporting requirements.
As the coordinator of the U.S. Government’s PEPFAR efforts, the Department of State
(Department), Office of the U.S. Global AIDS Coordinator (S/GAC), is responsible for
compliance with these requirements.

       The objective of this Office of Inspector General (OIG) audit was to determine the extent
to which the Department was fulfilling its obligations to oversee1 and report on contributions to
the Global Fund in accordance with the withholding and reporting requirements contained in the
United States Code2 (U.S.C.) and in other relevant laws and regulations.

        OIG found that S/GAC staff completed all required Global Fund-related reports but
published oversight information reports for FYs 2009, 2010, and 2011 on average approximately
9 months after the required 120-day timeframe. The missed timeframes occurred because
S/GAC officials had to wait to receive certain financial information from the Global Fund, which
is based in Geneva, Switzerland, before compiling and disseminating the oversight reports.
S/GAC’s congressional liaison stated that she notified congressional staff of the delays.
Nevertheless, senior S/GAC officials agreed with OIG that reporting timeliness should be
improved to increase the currency and relevancy of information presented to policymakers.

         OIG found that S/GAC withheld the correct amounts for each of the five withholding
requirements for FYs 2009–2011 and that S/GAC had exercised an optional authority within the
limits contained in each year’s annual appropriation law. The amounts withheld for each of
these years averaged approximately $48.4 million, or approximately 4.7 percent of the amounts
available each year for the U.S. Government’s contributions to the Global Fund. However, OIG
determined that S/GAC officials had continued to apply one additional withholding requirement
for at least three fiscal years after the requirement had expired. OIG brought this oversight to the
attention of S/GAC officials during audit fieldwork, and the error was promptly corrected.

         OIG made one recommendation for S/GAC to establish deadlines and interim
benchmarks to govern its reporting processes and incorporate these deadlines and benchmarks
into its standard operating procedures. S/GAC concurred with the recommendation.


1
    For the purposes of this audit, OIG defines “oversee” to mean implementation of the withholding requirements.
2
    22 U.S.C. § 7622, “Participation in the Global Fund to Fight AIDS, Tuberculosis and Malaria.”



                                                           1

                                                 UNCLASSIFIED
                                            UNCLASSIFIED



                                              Background
        The Global Fund describes itself as a global public/private partnership between
governments, civil society, the private sector, and affected communities, which is dedicated to
attracting and disbursing resources to prevent and treat AIDS, tuberculosis, and malaria. The
Global Fund works in close collaboration with other bilateral and multilateral organizations to
supplement existing efforts dealing with the three diseases.

        According to the Congressional Research Service, the Global Fund is one of the world’s
largest donors supporting AIDS, tuberculosis, and malaria programs in developing countries. In
July 2011, the Congressional Research Service reported that the Global Fund had committed to
provide $22.3 billion in support of more than 1,000 grants in 150 countries since the fund’s
establishment in January 2002.3 Since 2009, the U.S. Government’s contributions to the Global
Fund have averaged approximately $1 billion per year. For FY 2012, the Department received
$1.3 billion for the U.S. Government’s contribution to the Global Fund. For FY 2013, the
Department requested that $1.65 billion be made available for contribution to the Global Fund.

       The U.S. Government’s contribution to the Global Fund is a multilateral component of
PEPFAR. Over 40 countries contribute to the Global Fund, including France, Germany, Japan,
and the United Kingdom. Among other non-governmental donors, the largest by far is the Bill
and Melinda Gates Foundation, which had contributed $650 million as of the end of 2011.

         As the coordinator for the U.S. Government’s PEPFAR efforts, S/GAC is responsible for
the oversight and reporting of U.S. Government contributions to the Global Fund. A number of
restrictions and conditions must be met before the U.S. Government can provide its contributions
to this multilateral effort. These restrictions allow the U.S. Government a degree of influence
over the oversight and management of the Global Fund after the U.S. Government contribution is
pooled with contributions from other donors. Moreover, S/GAC must publish a number of
required annual and periodic reports, including summaries of Global Fund Board meetings.

                                                Objective
         The objective of this audit was to determine the extent to which the Department was
fulfilling its obligations to oversee and report on contributions to the Global Fund in accordance
with the requirements contained in the United States Code and in other relevant laws and
regulations.




3
 The Global Fund to Fight AIDS, Tuberculosis, and Malaria: Issues for Congress and U.S. Contributions from
FY 2001 to the FY 2012 Request, Congressional Research Service (R41363, July 1, 2011).



                                                      2

                                            UNCLASSIFIED
                                              UNCLASSIFIED


                                               Audit Results

Finding A. Timeliness of Reporting Needs Improvement
        S/GAC fulfilled all reporting requirements related to the U.S. Government contributions
to the Global Fund for FYs 2009–2011. (The reporting requirements are summarized in
Appendix B.) However, OIG found that three S/GAC oversight information reports were
transmitted to Congressional Appropriations Committees an average of 9 months later than the
required 120-day timeframe. This occurred because S/GAC officials had to wait to receive
certain financial information from the Global Fund before compiling and disseminating the
oversight reports. S/GAC’s congressional liaison stated that S/GAC had provided informal
notifications to congressional staff to alert them of the expected delays in providing these
reports. Nevertheless, disseminating the required reports on a timely basis to congressional
committees would increase the relevancy and usefulness of the information provided and would
allow policymakers to make better-informed decisions about the U.S. Government’s contribution
to the Global Fund.

Oversight Information Reports

        OIG determined that S/GAC had prepared reports in response to each year’s requirement
that contained all of the required information, specifically, the most recent Global Fund financial
audit information, commitment and disbursement data, and a summary of the recipient and sub-
recipient expenditures. However, the reports for all 3 years reviewed were provided to the
Appropriations Committees in Congress much later than the 120-day timeframe noted in each
year’s requirement.

        As shown in Table 1, OIG found that S/GAC had published each of the FY 2009,
FY 2010, and FY 2011 reports and sent them to the appropriate parties in Congress between
115 and 563 days late, or on average approximately 9 months late. The FY 2009 appropriations
bill became law on March 11, 2009,4 establishing the due date as July 9, 2009. The cover of the
report noted that the report was published in July 2009, but the Bureau of Legislative Affairs,
acting on behalf of S/GAC, provided the report to the relevant congressional recipients on
November 2, 2009, or 115 days late.

        The requirement for the FY 2010 report was contained in a House of Representatives
report5 that accompanied the appropriations bill and became effective when that bill became law
on December 16, 2009.6 This requirement established the due date for this report as April 15,
2010. The cover of the report noted that the report was published in October 2011, but the

4
  Department of State, Foreign Operations, and Related Programs Appropriations Act, 2009, Pub. L. No. 111-8,
div. H, 123 Stat. 898 (2009) (Explanatory Statement Submitted by Mr. Obey, Chairman of the House Committee on
Appropriations, Regarding H.R. 1105, Omnibus Appropriations Act, 2009.)
5
  H.R. Conf. Rep. No. 111-187, 111th Cong., 2nd Sess., Title III, “State, Foreign Operations, and Related Programs
Appropriations Bill” (2010).
6
  Consolidated Appropriations Act, 2010, Pub. L. No. 111-117, 123 Stat. 3034 (2009).



                                                        3

                                              UNCLASSIFIED
                                             UNCLASSIFIED

Bureau of Legislative Affairs, acting on behalf of S/GAC, provided the report to the relevant
congressional requestors on November 1, 2011, or 563 days late.

       Similarly, for FY 2011, the appropriations bill that carried the requirement forward from
the previous year became law on April 15, 2011,7 establishing a reporting deadline of August 12,
2011. The cover of the report noted that the report was published in November 2011, but the
Bureau of Legislative Affairs, acting again on behalf of S/GAC, provided the report to Congress
on December 6, 2011, or 115 days late.

Table 1. Timeliness of Oversight Information Reports Transmitted to Congress
                          Date the                                     Date Report Was
                    Appropriations Bill        Date Report Was          Transmitted to            Number of
    Report             Became Law              Due to Congress             Congress                Days Late
    FY 2009        March 11, 2009             July 9, 2009            November 2, 2009           115 days
    FY 2010        December 16, 2009          April 15, 2010          November 1, 2011           563 days
    FY 2011        April 15, 2011             August 12, 2011         December 6, 2011           115 days
Source: OIG analysis of data provided by the Office of the U.S. Global AIDS Coordinator.

        The S/GAC official responsible for compiling the oversight information reports stated
that the reports were late because S/GAC needed information from the Global Fund’s audited
financial statements. However, this information was not provided in sufficient time for S/GAC
to meet the 120-day requirement. The Global Fund’s financial auditor usually completes its
audit during the 6 months following the end of the Global Fund’s fiscal year on December 31
and delivers the audited financial statements to the Global Fund Board for review and approval
at the Board’s meeting in May of each year. The S/GAC official stated that the financial
statements and other supporting information were made available to the U.S. Government and
other interested parties only after review and approval by the Global Fund Board. Moreover, the
S/GAC official stated that after receiving the requisite financial information, the report had to be
cleared by relevant stakeholders before being delivered to Congress through the Bureau of
Legislative Affairs.

        OIG concluded that establishing formal procedures, including reporting deadlines and
interim benchmarks, would be helpful to S/GAC officials in improving the timeliness for all their
reporting requirements. Moreover, the Government Accountability Office has emphasized the
importance of appropriate documentation as an internal control standard, stating that
“documentation should appear in management directives, administrative policies, or operating
manuals and may be in paper or electronic form.”8 OIG further concluded that improving the
timeliness of S/GAC’s reporting would improve the relevance and usefulness of the information
provided to congressional committees and allow policymakers to make better-informed decisions
regarding the U.S. Government’s contribution to the Global Fund.


7
  Department of Defense and Full-Year Continuing Appropriations Act, 2011, Pub. L. No. 112-10, 125 Stat. 38
(2011) div. B, tit. I, §§ 1101(a)(6) and 1104.
8
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, Nov. 1999), p. 15.



                                                       4

                                             UNCLASSIFIED
                                        UNCLASSIFIED

       Recommendation 1. OIG recommends that the Office of the U.S. Global AIDS
       Coordinator establish deadlines and interim benchmarks for meeting each of its reporting
       requirements and incorporate these deadlines and benchmarks into its standard operating
       procedures.

       S/GAC Response: S/GAC agreed with the recommendation, stating that it had
       “established internal benchmarks and timelines for the certification of withholding
       requirements, in an effort to hold [itself] accountable and to improve the predictability of
       financial contributions and reporting.”

       OIG Analysis: OIG considers the recommendation closed.

Annual Reports

        S/GAC officials published online the required annual reports for FYs 2009–2011, and
OIG determined that the annual reports contained all the required information. OIG found,
however, that the annual reports covering all three fiscal years were issued at the same time, with
the information for FYs 2009 and 2010 combined together into one report.

        While the requirement to submit an annual report did not specify a deadline for these
annual reports, OIG found that the reports relating to each of the three fiscal years reviewed were
all issued in November 2011. The S/GAC official responsible for compiling these reports stated
that the clearance process for the combined report for FYs 2009 and 2010 caused a delay, during
which time she and her colleagues had almost completed the FY 2011 report. Because of this,
the official stated that S/GAC management decided to release both reports at the same time.
This official noted that S/GAC did not have any formal self-imposed deadlines for completion of
the annual reports but stated that S/GAC’s informal goal was to publish each annual report by the
end of the month following the end of each year (that is, by the end of January 2012 for the
FY 2011 report). The official acknowledged that this goal of adhering to a deadline was not part
of S/GAC’s standard operating procedures because such a deadline was not required. However,
the official agreed with OIG that standard operating procedures with targeted milestones could
be developed to improve reporting timeliness and make the information provided more relevant
for policymakers.

Global Fund Board Decision Points and U.S. Government Views and Votes

       OIG determined that S/GAC’s summaries of the U.S. Government’s views and votes
regarding the decision points reached at the November 2008 and May 2009 Global Fund Board
meetings were published on S/GAC’s public Web site, as required, although each summary
omitted three minor administrative decision points: appointing a rapporteur, approving the
minutes of the prior Board meeting, and approving the agenda for the current meeting. However,
OIG noted that S/GAC’s performance regarding these reports had improved over time: S/GAC’s
summaries for the November 2009 Global Fund Board meeting and for all subsequent Board
meetings included information related to all decision points.



                                                 5

                                        UNCLASSIFIED
                                             UNCLASSIFIED



Congressional Requests

        The United States Code9 requires that the Department respond to congressional requests
within 30 days for four categories of information: (1) all financial and accounting statements for
the Global Fund, (2) reports provided to the Global Fund by organizations contracted to audit
fund recipients, (3) project proposals submitted to but not funded by the Global Fund, and
(4) progress reports submitted to the Global Fund by grantees. S/GAC’s congressional liaison
stated that she was not aware of any inquiries for information covered under this requirement,
and OIG’s fieldwork did not identify any such inquiries. Therefore, a timeliness requirement for
responding to congressional requests for the four categories of information did not apply.

Finding B. Withholding Requirements Were Met
         OIG found that S/GAC had fully complied with each of the five withholding
requirements in effect for FYs 2009–2011 and verified that the amounts withheld were correct.
OIG also found that S/GAC had exercised its authority to withhold funding based on an authority
in each year’s appropriation law that has allowed money to be set aside for technical assistance.
(A list showing the withholding requirements and the optional authority provided to S/GAC is
provided in Appendix C.) The amounts withheld were as follows: FY 2009, $40,963,316;
FY 2010, $50,919,818; and FY 2011, $53,380,688.10 These amounts represented approximately
4.1 to 5.1 percent of the annual U.S. Government contribution to the Global Fund. For each
year, the total amount withheld was the sum of an offset of Global Fund transfers to state
sponsors of terrorism and an S/GAC decision to set aside funding pursuant to an optional
authority through which S/GAC is allowed to provide funds to the U.S. Agency for International
Development (USAID) for technical assistance projects. S/GAC considered the remaining four
withholding requirements, but no withholding was required because the Global Fund’s actions or
activities did not trigger the withholding. While the annual withholdings related to the six items
noted were accurate, OIG determined that for FYs 2009, 2010, and 2011, S/GAC officials
continued to consider a withholding requirement that had expired after FY 2008. OIG brought
this error to the attention of S/GAC officials during the audit, and the officials corrected their
contributions for the relevant years. As a result, OIG is not making a recommendation on this
issue.

        For each of the years reviewed, S/GAC oversaw approximately $1 billion in
appropriations meant for the U.S. Government’s contribution to the Global Fund. This funding
was provided through three separate appropriation bills: the Department’s appropriation, that of
USAID, and that of the National Institutes of Health. The withholding pursuant to the optional
authority to fund USAID technical assistance projects averaged approximately $36 million each
year. At the same time, S/GAC withheld between $6.4 million and $16.0 million from each

9
22 U.S.C. § 7622(g).
10
 The total contribution for FY 2011 had not been finalized as of June 30, 2012. The amounts reported for FY 2011
were current as of that date but are subject to change.



                                                       6

                                             UNCLASSIFIED
                                                  UNCLASSIFIED

year’s contribution to offset transfers from the Global Fund to countries that are designated by
the U.S. Government as state sponsors of terrorism. The amounts appropriated, withheld, and
contributed for FYs 2009–2011 are shown in Table 2, which also notes the percentages that the
withheld amounts represented as a proportion of the overall appropriations for each year
reviewed.

Table 2. Withholdings and Contributions for FYs 2009–2011
                                                                 FY 2009             FY 2010            FY 2011*
 Appropriations
   Department of State                                       $ 600,000,000       $ 750,000,000       $ 748,500,000
   USAID                                                        100,000,000                   0                   0
   National Institutes of Health                                300,000,000         300,000,000         297,300,000
 Total Appropriations                                         1,000,000,000       1,050,000,000       1,045,800,000

 Withholdings
   Required
   State Sponsors of Terrorism                                     6,376,748          14,919,818          15,955,688
   Limitation on Size of U.S. Government                                   0                   0                   0
      Contribution
   Administrative Expenses                                                   0                 0                   0
   Section 7060 Certification–Applied to                                     0   (Not applicable     (Not applicable
      FY 2009 only                                                                  in FY 2010)        in FY 2011)
   Lantos-Hyde Certification–Applied beginning               (Not applicable                   0                   0
      in FY 2010                                               in FY 2009)
   Optional
   USAID Technical Assistance                                     34,586,568          36,000,000          37,425,000
 Total Withholdings                                               40,963,316          50,919,818          53,380,688

 Total Contributions                                         $ 959,036,684       $ 999,080,182       $ 992,419,312

 Withholdings as a Percent of Appropriations                               4.1                 4.8                   5.1
*FY 2011 data current as of June 30, 2012.
Source: OIG analysis of data provided by the Office of the U.S. Global AIDS Coordinator.

State Sponsors of Terrorism

        S/GAC must withhold an amount to offset Global Fund transfers to “any country, the
government of which” is a state sponsor of terrorism. Under this requirement, S/GAC officials
withheld $6,376,748 for FY 2009, $14,919,818 for FY 2010, and $15,955,688 for FY 2011.11
OIG verified that the amounts withheld for each year were accurate. For each year reviewed,
S/GAC relied on information provided by the Global Fund to indicate how much funding it
provided to governments that are sponsors of terrorism. This information was attached to the
authorization memoranda, and OIG determined that each memorandum contained sufficient
justification to support the amounts withheld.

11
     For FYs 2009–2011, the countries identified as state sponsors of terrorism were Cuba, Iran, Sudan, and Syria.



                                                            7

                                                  UNCLASSIFIED
                                             UNCLASSIFIED


Technical Assistance

        For each of the years reviewed, S/GAC had the optional authority to set aside up to
5 percent of the Department’s and USAID’s appropriations designated for contribution to the
Global Fund for USAID’s use on technical assistance projects related to the implementation of
Global Fund grants. For FY 2009, S/GAC could have set aside up to $35,000,000 but instead
withheld slightly less, $34,586,568. Similarly, for FY 2010, S/GAC could have set aside up to
$37,500,000 but instead withheld $36,000,000. Although the U.S. Government’s contribution to
the Global Fund for FY 2011 had not been finalized as of June 30, 2012, S/GAC set aside the
maximum amount, $37,425,000, on a provisional basis pending a final decision regarding which
technical assistance projects to support with this funding. OIG determined that the amounts set
aside for each year did not exceed the 5 percent maximum allowed. Further, for FYs 2009 and
2010, OIG determined that S/GAC officials had prepared a memorandum to summarize the
technical assistance projects they would fund. The amounts set aside for each of those years
equaled the sum of the planned expenditures for each of the projects noted in that year’s
memorandum. S/GAC officials had not prepared such a memorandum for FY 2011 as of
June 30, 2012, because the withholding for that year had not been finalized.

Limitation on Size of U.S. Government Contribution

        For each of the years reviewed, S/GAC was required to withhold from the
U.S. Government’s contribution to the Global Fund any funding that would cause the total
U.S. Government contribution to exceed 33 percent of the total amount contributed from all
sources. While the U.S. Government’s contribution represented a significant proportion of
contributions to the Global Fund from all sources, that proportion did not exceed the 33 percent
limitation. As a result, no withholding was required to comply with this requirement, and none
was taken.

Global Fund Administrative Expenses

       Each year, the Department is required to withhold an amount to offset the amount by
which the Global Fund’s administrative expenses exceed 10 percent of the fund’s overall
expenses for the two preceding years. For FYs 2009–2011, OIG determined that S/GAC
appropriately withheld no funding for this requirement because the Global Fund's administrative
expenses were below the 10 percent threshold each year.

Section 7060 Certification

        For FY 2009, the only year that this requirement was in effect, S/GAC was required to
either certify that the Global Fund was meeting two grants management benchmarks for
performance12 or withhold 10 percent of the amounts designated for contribution to the Global

12
  To release funds for FY 2009, S/GAC had to certify to the Appropriations Committees that the Global Fund
(1) was releasing incremental disbursements only if grantees demonstrated progress against clearly defined



                                                       8

                                             UNCLASSIFIED
                                             UNCLASSIFIED

Fund in the Department’s and USAID’s appropriations for the year. This withholding could
have been as much as $70 million. OIG found that S/GAC appropriately withheld no funding
under this requirement because S/GAC determined and certified that the Global Fund had
complied with the two required grants management benchmarks.

Lantos-Hyde Certification

        Beginning in FY 2010, the Department has been required to either certify that the Global
Fund met 11 conditions noted in the requirement or withhold 20 percent of the amounts
designated for a contribution to the Global Fund in the Department’s and USAID’s Global Fund-
related appropriations each year. Among other things, the Department is required to assess
whether the Global Fund is publishing a variety of oversight documents on its public Web site; is
maintaining an independent, well-staffed Office of Inspector General; has established and is
publicly reporting on standard indicators for all program areas; and is maintaining its status as a
financing institution focused on programs directly related to HIV/AIDS, malaria, and
tuberculosis. This withholding could have been approximately $210 million for each year
reviewed. OIG found that S/GAC did not withhold any funding for either year reviewed because
S/GAC certified that the Global Fund had met each of the conditions noted in the law.

Global Fund Salaries

        In addition to the five withholding requirements and one optional authority noted in
Table 2 that were in effect during FYs 2009–2011, OIG determined that S/GAC continued to
consider an additional withholding requirement for three fiscal years after the requirement had
expired. For FYs 2008 and earlier, the United States Code13 required that S/GAC withhold an
amount to offset the total by which any Global Fund employee’s salary exceeded the salary of
the Vice President of the United States. OIG determined that for FYs 2009 and 2010, S/GAC
officials used salary information provided by the Global Fund to determine whether any
withholding was required. For FY 2009, S/GAC officials concluded that no withholding was
necessary. However, for FY 2010, S/GAC officials withheld $74,274 after reviewing the Global
Fund’s information. For FY 2011, S/GAC officials withheld $150,000 on a provisional basis
pending the receipt of salary information from the Global Fund. OIG identified this oversight
during its audit and advised S/GAC officials of the error, enabling them to correct the
contributions for both years. OIG is not making a recommendation on this issue because the
withholdings for FYs 2010 and 2011 were corrected and S/GAC’s most recent authorization
memoranda, which related to contributions of funding for FYs 2011 and 2012, correctly omitted
any consideration of this lapsed requirement.




performance indicators and (2) was implementing a reporting system that broke down grantee budget allocations by
programmatic activity.
13
   22 U.S.C. § 7622(d)(4)(A)(v).



                                                       9

                                             UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                     Appendix A
                                  Scope and Methodology
        The Office of Inspector General (OIG), Office of Audits, conducted this audit between
March and July 2012 in Washington, D.C., in accordance with generally accepted government
auditing standards. Those standards require that the auditors plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for its findings and conclusions
based on its audit objectives. OIG believes that the evidence obtained provides a reasonable
basis for the findings and conclusions based on the audit objective.

        To accomplish the audit objective, OIG interviewed officials from the Department of
State (Department), Office of the U.S. Global AIDS Coordinator (S/GAC). In addition, OIG
obtained information from the Department’s Bureau of Legislative Affairs and from the Global
Fund’s Office of Inspector General, which has its headquarters in Geneva, Switzerland. OIG
reviewed documents relating to the Department’s compliance with the oversight and reporting
requirements for FYs 2009–2011, including the following: Global Fund annual reports (each of
which included its own set of the Global Fund’s audited financial statements), oversight
information reports, the Global Fund Board’s decision points and supporting documents,
authorization memoranda from S/GAC to release funds to the Global Fund, documentation for
tracking flows of contribution funds, certification and waiver memoranda provided to Congress
by S/GAC, correspondence relating to the Global Fund sent to Congress from the Bureau of
Legislative Affairs, and audit reports published by the Global Fund’s Office of Inspector
General.

       OIG reviewed relevant laws governing withholding and reporting requirements, Office of
Management and Budget guidance, the Foreign Affairs Manual, the Foreign Affairs Handbook,
and the Government Accountability Office’s Standards for Internal Control in the Federal
Government. OIG reviewed cables prepared by Department officials related to the
U.S. President’s Emergency Plan for AIDS Relief (PEPFAR). Finally, OIG requested and
received assistance from its Office of General Counsel and Office of Inspections.

        This audit was included in a joint PEPFAR oversight plan, dated September 2011 and
covering FY 2012, developed by the Offices of Inspector General of the Department of State, the
U.S. Agency for International Development, and the Department of Health and Human Services.
OIG coordinated its efforts with those other Offices of Inspector General to keep appropriate
officials informed of the audit team’s work and to ensure there was no duplication of effort.

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG interviewed Department officials to assess the control environment
and evaluated written policies and procedures to comply with withholding and reporting
requirements for U.S. Government contributions to the Global Fund. OIG also reviewed control
steps involved in moving funds from Department accounts to Global Fund accounts. OIG


                                               10

                                       UNCLASSIFIED
                                        UNCLASSIFIED

determined that the lack of formal procedures, including reporting deadlines and interim
benchmarks for meeting reporting requirements, constituted an internal control deficiency, and
this deficiency was therefore reported in this audit report. In addition, the review of financial
data before being posted on a public Web site was not adequate to identify inaccurate and
duplicative data.

Review of Prior Reports

        OIG reviewed audit reports that pertained to the Global Fund and PEPFAR from OIG,
the Government Accountability Office, and the Congressional Research Service. The following
reports were reviewed:

          Audit of Construction and Transfer of Ownership of the President’s Emergency Plan
           for AIDS Relief (PEPFAR) Overseas Construction Projects (AUD/IP-11-14,
           June 2011). U.S. Department of State, Office of Inspector General, Office of Audits.

          Audit of Sources and Uses of Global HIV/AIDS Initiative Global Health and Child
           Survival Funds Related to the President’s Emergency Plan for AIDS Relief
           (PEPFAR) for FYs 2007 and 2008 (AUD/SI-11-10, December 2010).
           U.S. Department of State, Office of Inspector General, Office of Audits.

          Trends in U.S. Spending for Global HIV/AIDS and Other Health Assistance in Fiscal
           Years 2001-2008 (GAO-11-64, October 2010). Government Accountability Office.

          Global Fund to Fight AIDS, [Tuberculosis,] and Malaria Has Improved Its
           Documentation of Funding Decisions but Needs Standardized Oversight Expectations
           and Assessments (GAO-07-627, May 2007). Government Accountability Office.

          The Global Fund to Fight AIDS, Tuberculosis, and Malaria: Issues for Congress and
           U.S. Contributions from FY 2001 to the FY 2012 Request (Congressional Research
           Service Report for Congress R41363, July 1, 2011). Congressional Research Service.

Use of Computer-Processed Data

       OIG did not use computer-processed data as part of the audit methodology. However,
OIG did examine hard-copy documentation in lieu of computer-processed data to support
U.S. Government amounts contributed to, or withheld from, the Global Fund, including
authorization memoranda from S/GAC to release funds.




                                                11

                                        UNCLASSIFIED
                                               UNCLASSIFIED


                                                                                                      Appendix B
                         Reporting Requirements for FYs 2009–2011
         Requirement                        Source                                  Details
                                                               Submit an annual report to the Appropriations
                                                               Committees regarding contributions pledged to
                                                               and received by the Global Fund, projects
Annual Reports                      22 U.S.C. § 7622(c)
                                                               funded by the Global Fund, and mechanisms
                                                               established for transparency and accountability
                                                               in the grant-making process.
Global Fund Board Decision                                     Publish, on S/GAC’s public Web site, the
Points and                                                     Global Fund Board’s decisions and the
                                    22 U.S.C.
U.S. Government’s Views                                        U.S. Government’s votes and views on these
                                    § 7622(d)(6)
and Votes Regarding These                                      decisions following each Board meeting.
Decisions
                                                               Make four categories of information such as the
                                                               following: (1) all financial and accounting
                                                               statements for the Global Fund, (2) reports
                                                               provided to the Global Fund by organizations
Congressional Requests              22 U.S.C. § 7622(g)        contracted to audit fund recipients, (3) project
                                                               proposals submitted to but not funded by the
                                                               Global Fund, and (4) progress reports submitted
                                                               to the Global Fund by grantees available to
                                                               Congress within 30 days of a request.
                                                               Provide a report to the Appropriations
                                                               Committees not later than 120 days after
                                    Annual
                                                               enactment of this act that contains the most
Reports Regarding Oversight         appropriations acts
                                                               recent Global Fund audit information,
Information                         and/or related
                                                               commitment and disbursement data, and a
                                    legislative reports
                                                               summary of the recipient and sub-recipient
                                                               expenditures.
Note: The text of some of these requirements refers to authorities granted to both the President and the Secretary of
State. For each of the years reviewed, these authorities had been formally delegated to the U.S. Global AIDS
Coordinator.
Sources: United States Code and annual appropriations acts and/or legislative reports.




                                                         12

                                               UNCLASSIFIED
                                               UNCLASSIFIED


                                                                                                      Appendix C

                        Withholding Requirements for FYs 2009-2011
       Requirement                            Source                                     Details
                                                                       Withhold an amount to ensure that
 Limitation on Size of                                                 U.S. Government contributions to the
 U.S. Government                22 U.S.C. § 7622(d)(4)(A)(i)           Global Fund do not exceed 33 percent of
 Contribution                                                          the total amount contributed from all
                                                                       sources.
                                                                       Withhold an amount to offset Global
 State Sponsors of                                                     Fund transfers to any country, the
                                22 U.S.C. § 7622(d)(4)(A)(ii)
 Terrorism                                                             government of which is a state sponsor of
                                                                       terrorism.
                                                                       Withhold an amount to offset the amount
                                                                       by which the Global Fund’s
 Administrative Expenses        22 U.S.C. § 7622(d)(4)(A)(iii)         administrative expenses exceed
                                                                       10 percent of the fund’s overall expenses
                                                                       for the two preceding years.
                                                                       Certify to the Appropriations
                                                                       Committees that the Global Fund is
                                                                       releasing incremental disbursements only
                                Pub. L. No. 111-8, Division H,         if grantees demonstrate progress toward
 Section 7060
                                Section 7060(b)–applied to             performance indicators, or withhold
 Certification
                                FY 2009 only                           10 percent of the amounts designated for
                                                                       contribution to the Global Fund as a part
                                                                       of the Department’s and USAID’s
                                                                       appropriations.
                                                                       Certify to the Appropriations
                                                                       Committees that the Global Fund has
                                                                       complied with 11 conditions meant to
 Lantos-Hyde                    22 U.S.C. § 7622(d)(5)–applied         strengthen its oversight, or withhold
 Certification                  beginning in FY 2010                   20 percent of the amounts designated for
                                                                       contribution to the Global Fund as a part
                                                                       of the Department’s and USAID’s
                                                                       appropriations.
   Optional Authority                         Source                                     Details
                                                                       Withhold up to 5 percent of amounts
                                Annual appropriations acts:            designated for contribution to the Global
                                 FY 2009: Pub. L. No. 111-8            Fund in the Department of State and
 Technical Assistance
                                 FY 2010: Pub. L. No. 111-117          USAID appropriations for use on
                                 FY 2011: Pub. L. No. 112-10           technical assistance projects related to
                                                                       implementation of Global Fund grants.
Note: The text of some of these requirements refers to authorities granted to both the President and the Secretary of
State. For each of the years reviewed, these authorities had been formally delegated to the U.S. Global AIDS
Coordinator.
Source: United States Code and annual appropriations acts.




                                                         13

                                               UNCLASSIFIED
                                 UNCLASSIFIED


                                                                                        Appendix D


                                                       nited �tales De�at1mt'nt of Stat<'

                                                     lla.�hmgton, D.C.   2Q520


MEMORANDUM                                                         October 5, 2012




                                                   .�
TO:          OIG- Harold W. Geisel


FROM'        S/GAC- Ambassador Eric Goosby


SUBJECT:     Response to the Report, Audit ofDepartment ofState Oversight and
             Reporting of U.S. Government Contributions to the Global Fund

Thank you for the opportunity to review and comment on the Septerpber 2012 draft
Audit ofDepartment ofState Oversight and Reporting of U.S. Government
Contributions to the Global Fund. The Office of the U.S. Global AI;DS
Coordinator (S/GAC) appreciates the efforts that the Office of the Inspector
General (OIG) expended conducting this thorough review.                   1

The requirements specified by the U.S. Leadership Against HIV/AIDS,
Tuberculosis and Malaria Act of2003, as amended in2008 (the "Leadership Act");
annual appropriations bills; and related legislative reports are a critical component
of the U.S. Government's (USG) oversight of our contribution to the Global Fund
to Fight AIDS, Tuberculosis and Malaria (Global Fund). These reports are one
important component of our office's financial oversight and outreach to
Congressional appropriations and authorizing committees, which alsp includes
frequent communication, timely briefings on the outcome of Global Fund Board
meetings and other emerging policy developments, and responsiveness to ad hoc
Congressional inquiries. S/GAC staff engages continuously with thd Global Fund
Secretariat to maximize our understanding of Global Fund processe        � requirements,
and guidelines, further strengthened by USG participation on the Global Fund


                                                                          I
Board and engagement at the country-level.


S/GAC agrees with the OIG's recommendation and has undertaken a number of
activities to improve the benchmarking and timeliness of our Congressional
reporting. As noted in the OIG's report, several of the required doc�ents
included with the oversight report due 120 days after the appropriations bill (e.g.
                                                                     1
annual audited fmancial statements, summary of recipient expenditu es) are made
available to the USG only pending review and a vote of approval by the full Global
Fund Board, which typically holds its first meeting of the year in Mar. S/GAC
                                                                           l
Congressional Relations staff alerts Congressional appropriators and authorizers to



                                   UNCLASSIFIED




                                          14

                                 UNCLASSIFIED
                                UNCLASSIFIED




                                   UNCLASSIFIED
                                       - 2-


this limitation and the impact on the timeliness of our reporting. We concur that
disseminating formal reports to Congressional conmlittees in a more timely
manner would increase the relevancy of the infonnation for their decision-making.


In an effort to expedite the consideration of various requirements for FY 2012
                                                                   ,




S/GAC requested that the Glo ba l Fund Secretariat submit infonnation on
individual withholding and reporting requirements as it becomes available, rather
than awaiting a complete package of infonn atio n. In 2012, the Global Fund has
worked to resp ond to this request. S/GAC has also established internal
benchmarks and time lines for the certification of withholding requirements, in an
effort to hold ourselves accountable and to improve the predictability of financial
contributions and reporting. S/GAC continues to work to balance timely reporting
with in-depth due diligence to ensure that the Global Fund is meeting the highest
performance, accountability, and transparency sta ndards.


S/GAC is confident that our ongoing efforts will continue to maintain the quality
of our fiduciary oversight, a responsibility we take very seriously as the largest
donor to the Global Fund. TI1e USG contributions to and engagement with the
Global Fund are a central element of our shared strategy for achieving success in
the fight against .HIVIAIDS, tuberculosis, and malaria. Over the last two years, the
USG reinforced our strong political and financial support for the Global Fund w ith
an unequivocal call for urgent in1plementation of a comprehensive transfonnation
plan intended to strengthen Global Fund operations and enable the Fund to· save
and improve lives more effectively. The USG continues to demand refonns that
will ensure stronger financial oversight over our investment.


Thank you a gain for the opportunity to provide comments on the Draft Report.
S/GAC looks forward to continuing our collaborative efforts with the OIG in the
future.




                                   UNCLASSIFIED




                                         15

                                UNCLASSIFIED
                                     UNCLASSIFIED


                         Major Contributors to This Report
Richard A. Astor, Director
Contracts and Grants Division
Office of Audits

Mark P. Taylor, Audit Manager
Contracts and Grants Division
Office of Audits

Patrick M. Sampson, Senior Auditor
Contracts and Grants Division
Office of Audits

Cristina G. Ward, Senior Auditor
Contracts and Grants Division
Office of Audits




                                          16

                                     UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
